            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        STATE OF NEW YORK
     FOR THE FISCAL YEAR ENDED
           MARCH 31, 2002

     January 2004   A-77-04-00005




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY
MEMORANDUM
Date:   January 21, 2004                                                      Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Assistant Inspector General
         for Audit

Subject: Management Advisory Report: Single Audit of the State of New York for the Fiscal
        Year Ended March 31, 2002 (A-77-04-00005)

        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of New York for the Fiscal Year ended March 31, 2002. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        KPMG LLP performed the audit. The Department of Health and Human
        Services’ (HHS) desk review concluded that the audit met Federal requirements. In
        reporting the results of the single audit, we relied entirely on the internal control and
        compliance work performed by KPMG LLP and the reviews performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The New York Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The
        Department of Social Services, Office of Temporary and Disability Assistance (OTDA) is
        the New York DDS’ parent agency.

        The single audit reported that OTDA:

        1. Allocated costs to the New York DDS based on methodologies that were not
           approved by HHS’ Division of Cost Allocation (DCA). The corrective action plan
           indicated that OTDA’s cost allocation plan was approved by DCA subsequent to the
           audit period and costs were allocated to the DDS based on the approved plan.
           (Attachment A, pages 1 through 3).
Page 2 – Candace Skurnik


2. Miscoded payroll and voucher expenses in its accounting system totaling $60,895.
   The miscoded expenses may have resulted in improper charges to various Federal
   programs, including SSA. The corrective action plan indicated that OTDA
   implemented an electronic timecard to ensure that payroll expenses are coded
   correctly and strengthened the voucher coding review process (Attachment A,
   pages 4 through 6).

We recommend that SSA:

1. Verify whether the indirect costs charged to the New York DDS during April 2001
   through March 2002 were in accordance with the HHS approved cost allocation plan
   and collect any unallowable costs.

2. Determine if the miscoded expenses of $60,895 resulted in inappropriate charges to
   the New York DDS and collect any unallowable costs.

The single audit also disclosed that OTDA did not have procedures in place for
electronic benefit transfer reconciliations that involved cash draws of Federal funds.
Although this finding was not specifically identified to SSA, it may impact DDS
operations. I am bringing this matter to your attention as it represents a potentially
serious service delivery and financial control problem for the Agency (Attachment B,
pages 1 and 2).

Please send copies of the final Audit Clearance Document to Shannon Agee in
Kansas City and Rona Rustigian in Baltimore. If you have questions contact
Shannon Agee at (816) 936-5590.




                                         S
                                         Steven L. Schaeffer


Attachments
Attachment A
  Page 1 of 6
Attachment A
  Page 2 of 6
Attachment A
  Page 3 of 6
Attachment A
  Page 4 of 6
Attachment A
  Page 5 of 6
Attachment A
  Page 6 of 6
Attachment B
  Page 1 of 2
Attachment B
  Page 2 of 2
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
